<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         ORGANIZATIONAL MEETING

=======================================================================



                                MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

           MEETING HELD IN WASHINGTON, DC, FEBRUARY 16, 2007

                               __________

      Printed for the use of the Committee on House Administration




                     U.S. GOVERNMENT PRINTING OFFICE

35-577 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                   COMMITTEE ON HOUSE ADMINISTRATION

           JUANITA MILLENDER-McDONALD, California, Chairwoman
ROBERT A. BRADY, Pennsylvania        VERNON J. EHLERS, Michigan
ZOE LOFGREN, California                Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN DAVIS, California
                         Vacant, Staff Director
                 Will Plaster, Minority Staff Director


                         ORGANIZATIONAL MEETING

                              ----------                              


                       FRIDAY, FEBRUARY 16, 2007

                          House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m., in room 
1310, Longworth House Office Building, Hon. Juanita Millender-
McDonald (chairwoman of the committee) presiding.
    Present: Representatives Millender-McDonald, Lofgren, 
Gonzalez, Ehlers, Lungren, McCarthy and Davis.
    Staff Present: Charles Howell, Chief Counsel; Matt Pinkus, 
Parliamentarian; Kristin McCowan, Legislative Clerk; Sterling 
Spriggs, Technology Director; Ellen McCarthy, Professional 
Staff; Fred Hay, Minority General Counsel; Paul Vinovich, 
Minority Counsel; and Bryan Dorsey, Minority Professional 
Staff.
    The Chairwoman. Good morning. It is indeed a pleasure to 
see all of you here this morning as we organize the Committee 
on House Administration for the 110th Congress. I would like to 
first welcome back those members who were here, the current 
members.
    And so happy to see the Ranking Member as well as all of 
the other members who have come back.
    I would like to welcome the new members who are here. It is 
indeed a pleasure to see all of you, and I just know we are 
going to work well this year in Congress, and we will have a 
delightful time as much as possible. But it is indeed a 
pleasure to see all of you here this morning.
    Just coming off of the flu, I might be a little hoarse, but 
all and all, I think I will be fine.
    I would like to have a few remarks from our Ranking Member.
    And it is good to see you, Mr. Ehlers, a few remarks from 
you?
    Mr. Ehlers. Thank you, Madam Chair. I have a fairly lengthy 
opening statement if this is the appropriate time for it. But 
if you wish----
    The Chairwoman. I will give you as much time as you want to 
consume on that.
    Mr. Ehlers. I thank you very much.
    The Chairwoman. But the other members will not have that 
privilege.
    Mr. Ehlers. I suspect they do not care to use it either.
    This is the case of the old man turning things over to the 
younger woman and saying, this would be nice, this would be 
what I would like to have done had I been here.
    I certainly want to thank my colleague from California, Ms. 
Millender-McDonald, for her remarks, and I congratulate her on 
her new position as Chair of this committee.
    That is a remarkable change for the Congress, along with 
many other remarkable changes that we have, and I am pleased 
that your staff was kind enough to give you a brand new gavel 
to celebrate this occasion. I suspect you are the first woman 
to occupy the chairmanship of this committee, and that is 
another first for our Congress.
    For many years we have enjoyed a harmonious professional 
and personal relationship, and our warm personal friendship 
should continue, despite our differing views on some issues. 
Although our roles are now reversed, I welcome the opportunity 
to continue to work with you in the same spirit of cooperation 
and partnership that has characterized our time as the senior 
members of our respective parties on this committee.
    I would also like to welcome the newest Republican members 
of this committee who both, coincidentally, also hail from the 
State of California, as does our chairwoman and of course other 
members of the committee. That is clearly an attempt by the 
State of California to take over this committee. Even though we 
are split on partisan lines, I would like to assure the 
Californians, if they try to take advantage of us 
midwesterners, you have got a battle on your hands.
    As a former attorney general of California with a keen 
interest in national security, Congressman Dan Lungren's 
experience will serve this committee well, given our oversight 
of the Capitol Police and emergency protocols covering the 
House side of the Capitol complex.
    Welcome, Congressman Lungren.
    Also with us is Congressman Kevin McCarthy, who, although 
he is a freshman, is no stranger to the workings of the 
Committee on House Administration, having been a senior aide to 
former Chairman Bill Thomas. He was elected upon Representative 
Thomas's retirement to serve the same district represented by 
his former boss.
    Welcome, Congressman McCarthy.
    I know that each of my esteemed Republican colleagues have 
looked forward to this day with some anticipation so that they 
may begin to delve into the many issues under this committee's 
purview. I am certain that they will have that opportunity, and 
I am extremely pleased that they are each here today as members 
of this committee.
    Before we adopt the rules for the remainder of the 110th 
Congress, I will hope you will indulge me to reflect a bit on 
the progress we have made in the past years and the challenges 
that still lay ahead of us as we embark upon a new term.
    Over the last 12 years, we have seen a great deal of change 
in the operations of this institution and, for that matter, 
this committee. After the Republicans assumed the majority in 
1994, we knew we had a number of challenges and opportunities 
before us to make the House the professionally run place we 
knew it could be and, fortunately, has become.
    First, we faced the daunting task of overhauling the House 
financial systems and processes. When I look back and see that 
we came from an institution whose books were so poorly kept as 
to be unusable to outside auditors in 1994 when the Republicans 
took over the House, to an organization which has now received 
its eighth consecutive clean financial opinion, I feel an 
enormous sense of pride at what we were able to accomplish. 
With their return to the majority, Democrats now also assume 
the responsibility of ensuring that this institution will 
continue to maintain that high level of financial stewardship.
    I am certain that you will do that, Madam Chair. I will be 
pleased to offer my assistance and cooperation in any way that 
I can to make certain that happens.
    Another area of focus of this committee has been ensuring 
that our technology infrastructure is in place to enhance 
productivity for Members and staff in the House. In 1995, as 
chairman of the House Computer and Information Services Working 
Group, I championed the Cyber Congress Plan, commonly referred 
to as the Boonstra report. I put an immense amount of effort 
into that program, and as a result, we created a new 
standardized e-mail platform that would replace the 11 separate 
e-mail systems that were then used across the House.
    As challenging a task as it was, today we reap the benefits 
of being on a common e-mail platform as well as other uniform 
software choices and a unified system that allows for enhanced 
collaboration and improved technical support.
    That does not mean that we have done enough. In September 
of last year, we held a hearing on a new IT assessment compiled 
by the Congressional Management Foundation and Gartner 
Consulting which was the product of extensive research with key 
House stakeholders, including detailed interviews with 128 
Members, managers and staff throughout the House and the 
legislative branch.
    Reviewing the ``To-Be Visions'' in their report was an 
important step in implementing a strategic technology plan for 
the next decade of technology improvements in the House. It is 
my sincere hope that we will be able to build upon those 
efforts and continue to make progress on furthering the use of 
technology for the betterment of this institution.
    This is the most important piece of unfinished business 
facing this committee. And Madam Chair, just adding a personal 
note, I spent a good deal of my life trying to build the system 
that we have. It was indeed very complex to network 11,000 
computers and get them all working together to serve the 
Members well. I am not saying that in terms of bragging about 
what I have done, but just that it has been so important to 
make the institution function well. I designed the system so 
that I would be basically out of it--I would not get accolades 
for what I have done--because I wanted it to work so well that 
it would be seamless and work readily.
    I think that is a very important thing. Technology changes 
so fast. We have not really improved it in 10 years. I believe 
it is very important that we pursue this effort. I also 
appreciate that we have some computer experts on this panel, 
particularly Ms. Lofgren, who represents Silicon Valley. Ms. 
Lofgren is certainly going to be an asset in any attempts which 
we make here.
    With the change in leadership that occurred in this 
Congress, new subcommittees are also being formed for this 
committee on elections and Capitol security. I commend you for 
that. I often wondered whether we should do that last year.
    The Subcommittee on Elections will focus on election 
reform. We also know this committee was instrumental in passing 
the Help America Vote Act in 2002. This historic legislation 
and the $3 billion in Federal assistance that have been 
appropriated pursuant to it, without question, has improved our 
election process in this country.
    I know the Chairwoman has written to the Appropriations 
Committee to express her support for an additional $800 million 
appropriation for HAVA. I do not object to eventually expending 
this money, but our concern is that already pending before this 
committee are a number of bills that seek to amend HAVA. I 
would hate to see additional moneys go out now only to see them 
being used for the purpose of equipment that would still be 
inadequate. If we are going to improve these requirements, we 
should first develop the new standards necessary to implement 
them before we spend more money.
    To be specific, it is worth noting that problems people 
experienced with paper-based voting machines led many 
jurisdictions to use their HAVA money to buy electronic 
systems. Now, concerns about the security of the electronic 
systems have caused many to call for a return to paper.
    I think we need to take a deep breath and think carefully 
about what systems we need before spending hundreds of millions 
more of the taxpayers' money. I hope the Subcommittee on 
Elections will allow for the careful attention and thoughtful 
consideration these issues require.
    In addition to the work of the subcommittee, I hope the 
full committee will remain engaged in these issues as well. 
HAVA was considered and written in a bipartisan fashion and 
ultimately passed with strong support on both sides of the 
aisle. If we are going to amend it, I hope the process will be 
handled in the same bipartisan fashion that led to HAVA's 
passage in the 107th Congress.
    Another subcommittee will focus on security, particularly 
the protection of the Capitol complex and those who work in and 
visit the House each day, including the new Capitol Visitors 
Center. In the past several years, this committee has worked to 
standardize emergency communications protocols and has remained 
engaged in overall crisis preparedness activities. I expect 
that the full committee will continue these oversight 
activities, with the Subcommittee on Capitol Security providing 
more in-depth analysis.
    In view of my earlier comments about new technology and 
computer systems needed in the House, I also ask the Chair to 
consider the formation of a technology subcommittee. This is 
one of the biggest expenditures of the House, following only 
salaries, benefits and maintenance, and it deserves more 
attention.
    Finally, I would like to say that each of us on this 
committee, regardless of party, wants to see this institution 
and all agencies under its oversight authority continue to 
thrive in the 110th Congress and beyond that time. Madam 
Chairwoman, I know you will agree with me when I say that the 
ties that bind us are far greater than the divisions that 
separate us. It is with that spirit in mind that we will each 
approach the legislative and oversight matters before this 
committee. I thank you for this time, and I yield back.
    The Chairwoman. Indeed, I thank you so much, Mr. Ranking 
Member. You should be given the accolades that you deserve on 
all of the accomplishments that you made in the 109th Congress. 
It was a joy serving with you as Ranking Member. I will now 
enjoy serving with you as the Ranking Member. I thank you so 
much. I know your technological background, and I certainly 
hope that you help us in making sure that this House becomes 
even more efficient in that manner.
    California is not trying to take over. California has taken 
over. No, no, no, we do graciously accept those who want to 
come into California's den.
    Let me just say, thank you very much for introducing both 
our former Lieutenant Governor and the newly elected gentleman 
from California, Mr. McCarthy. It is indeed a pleasure to have 
both of you here. I would like to just introduce the current 
member who comes back to us. She is not a stranger here. She 
served admirably during the impeachment and was one of the main 
attorneys in the forefront of that: Congresswoman Zoe Lofgren, 
an attorney in her own right and also a technological expert.
    It is indeed a pleasure to have you back, Congresswoman 
Lofgren.
    We have with us Congresswoman Susan Davis, one of our new 
additions. She is a former educator and director of a Mentor 
for Youth program. She was the chair of the San Diego League of 
Women Voters. It is so great to have you here.
    We also have Congressman Charlie Gonzalez. I kid with him 
often because, when I was in the State legislature, I would 
prepare to go to the State House and look at his absolutely 
outstanding and extraordinary father, Congressman Henry 
Gonzalez. And when he came to Congress, I told him that he had 
really big shoes to fill. But, you know, Charlie Gonzalez has 
come, and he has exceeded filling those shoes. He is a former 
judge and, of course, an attorney. And so we are so pleased to 
have you here, too, as an addition.
    All of you who are new here, we are very pleased to have 
you here because you will bring your talent and the great 
spirit that we have already seen displayed by the former chair 
of this committee.
    I would like to stop to say that when I gaveled myself this 
morning, I should have said to you that this outstanding gavel 
was given to me by this outstanding majority staff. And they 
have written on the card: With a grand and graceful gesture to 
the Chairwoman.
    I think this is so great. So extraordinary. I thank you so 
much. I am just going to gavel again. This is really great.
    Now, we will proceed with the three resolutions that we 
have here. I have observed that there are seven members here, 
so we do have a quorum, and we can proceed.
    I would like to announce, pursuant to the House rules, that 
we appoint our distinguished colleague, the gentleman from 
Pennsylvania, Representative Bob Brady, to be the Vice Chair of 
the Committee for the 110th Congress. Mr. Brady is still snowed 
in and snowed under in Pennsylvania, but he will do well in 
that position.
    The first item of business will be the adoption of the 
Rules of the Committee on House Administration for the 110th 
Congress. Copies are in the members' packets. The rules are 
very similar to the rules we used for the Committee in the 
109th Congress which served as a starting point for these 
rules.
    Those are number 1 in your packet or however, Mr. Ranking 
Member, you set yours up. If there are no objections, we will 
dispense with the reading of the Committee Resolution 1 and 
begin discussion.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 35577A.001
    
    [GRAPHIC] [TIFF OMITTED] 35577A.002
    
    [GRAPHIC] [TIFF OMITTED] 35577A.003
    
    [GRAPHIC] [TIFF OMITTED] 35577A.004
    
    [GRAPHIC] [TIFF OMITTED] 35577A.005
    
    [GRAPHIC] [TIFF OMITTED] 35577A.006
    
    [GRAPHIC] [TIFF OMITTED] 35577A.007
    
    [GRAPHIC] [TIFF OMITTED] 35577A.008
    
    [GRAPHIC] [TIFF OMITTED] 35577A.009
    
    [GRAPHIC] [TIFF OMITTED] 35577A.010
    
    [GRAPHIC] [TIFF OMITTED] 35577A.011
    
    [GRAPHIC] [TIFF OMITTED] 35577A.012
    
    The Chairwoman. I will note that the only significant 
change in the rules is the creation, as the Ranking Member has 
outlined, of the two subcommittees. The subcommittees allow 
extra focus on very important areas and expand the opportunity 
for committee members to be exposed to and influenced by policy 
formation and conduct oversight.
    Now, we are a small committee. So for the 110th Congress, 
we are proposing two subcommittees, each will be active during 
the entire Congress. The subcommittees are named Capitol 
Security, and Elections.
    It is important that we recognize the safety and security 
of the Capitol. Over the last two congresses, we have had to 
evacuate at a moment's notice, and we have seen that there have 
been some impediments to getting our disabled Members out as 
quickly as we could. This is one reason why we have established 
this subcommittee, so that we can look into Capitol security, 
not only for the Members but for our guests and all others who 
will be in the Capitol at the time that we have to evacuate.
    The other subcommittee is the Subcommittee on Elections. I 
think all of us recognize that there is a need to review 
election law and look at the various election machines that are 
being used throughout the country. The one thing that we must 
remember, we must have election integrity at all times. The 
voters of this country must feel that when they vote, their 
vote is counted and they feel good about voting.
    If there is no discussion on the resolution of the adoption 
of the Rules, Mr. Ranking Member?
    Mr. Ehlers. Thank you very much, Madam Chair.
    I have no objection to the rules. As I said earlier, I 
commend you for the creation of the subcommittees. I think 
these particular areas were badly needed. I would urge you to 
consider also a subcommittee on technology. The two you named 
are ones we probably want forever. The technology one could be 
a shorter one of 2 years, perhaps. I appreciate that.
    I also want to commend your staff for working with us. We 
had some concerns about parts of the rules. We were able to 
work out very harmoniously an agreement on them. So it is my 
pleasure to say that we are quite willing to support the 
current rules as you have presented them to us.
    The Chairwoman. Thank you so much, Mr. Ranking Member.
    I did hear that there were some, but they were not 
significant, if you will.
    Mr. Ehlers. No.
    The Chairwoman. We thank you for working with the staff to 
get that.
    If there are no other concerns or thoughts or comments, 
then the question is on the adoption of the committee rules.
    All those in favor signify by saying aye.
    Opposed, no.
    The rules are adopted, and the motion to reconsider is laid 
on the table.
    The Chair will have the committee rules printed in the 
Congressional Record as required by the House.
    The second item of business is electing members to 
subcommittees. I offer for consideration Resolution Number 2 
that is in your binder for electing the members to the two 
subcommittees.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 35577A.013
    
    [GRAPHIC] [TIFF OMITTED] 35577A.014
    
    The Chairwoman. I have been told that the names have been 
given now for the Republican members, and I will just read 
those off.
    The Subcommittee on Capitol Security: Robert Brady is the 
Chair. Michael Capuano and Daniel Lungren are the two members 
on that committee.
    The Subcommittee on Elections: Zoe Lofgren is the Chair, 
Charlie Gonzalez, Susan Davis, Kevin McCarthy, Vern Ehlers and 
yours truly are on that subcommittee.
    Are there any comments on the establishment of those two 
subcommittees?
    Mr. Ehlers. I am pleased to move the approval of the 
resolution.
    The Chairwoman. Thank you so much.
    All those in favor signify by saying aye.
    Opposed, no.
    The ayes have it, and Resolution Number 2 electing the two 
subcommittees is in order.
    The third resolution that we have here is the Oversight 
Plan, Resolution Number 3.
    This is the last item on the agenda as required by House 
Rules X. The plan is in the members' packet, and without 
objection, the reading will be dispensed with.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 35577A.015
    
    [GRAPHIC] [TIFF OMITTED] 35577A.016
    
    [GRAPHIC] [TIFF OMITTED] 35577A.017
    
    [GRAPHIC] [TIFF OMITTED] 35577A.018
    
    [GRAPHIC] [TIFF OMITTED] 35577A.019
    
    [GRAPHIC] [TIFF OMITTED] 35577A.020
    
    [GRAPHIC] [TIFF OMITTED] 35577A.021
    
    [GRAPHIC] [TIFF OMITTED] 35577A.022
    
    The Chairwoman. The Oversight Plan consists of matters 
within the standing jurisdiction of the committee with 
additional emphasis on subjects to which we may devote special 
attention either through oversight or legislation. It is, in 
essence, a broad menu to aid the committee in focusing its 
work. The Chair recognizes the Ranking Member if he is so 
inclined to speak.
    Mr. Ehlers. I am pleased to move approval of the Oversight 
Plan.
    The Chairwoman. Thank you so much.
    The approval of the committee, the question is on the 
approval of the resolution.
    All those in favor signify by saying aye.
    Opposed, no.
    The ayes have it. The Committee Resolution Number 3 
relating to the Oversight Plan is agreed to.
    If there is nothing else coming before the committee, I 
must say that I am sorry I did not say that Congressman Lungren 
is the former attorney general for the State of California. I 
don't know why I forgot that.
    Mr. Lungren. You said lieutenant governor. I tried for 
another position----
    The Chairwoman. I was trying to up you one or two, but that 
is okay. We were very pleased to have you for that.
    Prior to this meeting, I took several actions on behalf of 
the committee. I will report them to you shortly with 
associated documents. Mr. Ranking Member, you will get that, 
and hopefully, you can pass it on to your members as I will 
pass it on to mine.
    If there are no other comments from any of the members, Mr. 
Ehlers, any closing?
    Mr. Ehlers. No, I just want to congratulate you once again. 
I look forward to a productive and harmonious Congress. Even 
though I know we will tangle occasionally on some of the deeply 
divisive political issues that we face occasionally, most of 
the time, we are simply concerned about making this institution 
run well together. I hope that we can do that with grace and 
good-heartedness and really achieve what is best for this 
institution and for the people of the country.
    The Chairwoman. Thank you so much.
    This committee does run pretty well and pretty smoothly, 
and there should not be many bumps in the road. If so, I am 
sure you and I can smooth those out. Thank you again.
    To all of the other members and the new members, thank you 
for coming today and making this meeting a showcase of 
cooperation.
    If there is no objection, the staff is authorized to make 
technical and conforming changes to the materials and matters 
considered today.
    No other questions, no other business, this committee 
stands adjourned.
    [Whereupon, at 10:29 a.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
